f
i

No. 19-582

Inthe
SUPREME COURT OF THE UNITED STATES
Sara Ann Edmondson,
Petitioner,
vs.
Lilliston Ford Inc; JANE AND JOHN DOES 1-10, individually and
as owners, officers, directors, founders, managers, agents, servents,
employees, representatives and/or independent contractors of
LILLISTON FORD, INC.; XYZ CORPORATIONS 1-10,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Third Circuit

REPLY BRIEF TO BRIEF IN OPPOSITION

Sara Ann Edmondson, Pro Se
71 Rainbow Trail
Pittsgrove, NJ 08318
609.501.2249

Two years prior to the executed order submitted in Respondent’s
Opposition and in response to representations made by Respondent,
the lower court ordered Respondent to provide the court with
copies of the transcripts of all state court proceedings. (Appendix M
- attached) On page 17a of Petitioner’s Appendix D, the lower court
added, “ the Court determined that, contrary to Defendant’s
representations to this Court, no settlement had been reached
before the state court.” Respondents’ judicial admission, as the
drafter of the contract, would have made the Court review contract
validity as imposed by the Supreme Court in First Options.
According to the US Supreme Court in Oscanyan, “A court is, in the
due administration of justice, bound to refuse its aid to enforce such
a contract although its invalidity be not specially pleaded.”
Oscanyan emphatically states that it is the job of the Court - and
NOT the party - to take action on judicial admissions that invalidate
contracts that are the crux of a court complaint. The lower Court’s
determination that

1

Respondent’s representations on the court are untrue is also perjury
- the latter of which has its own prescriptions and mandates from
the US Supreme Court and may also require supervisory authority.
That same executed order in Respondent’s Opposition
preceded by one month Respondent’s second judicial admission of
its invalid contract (detailed in Writ) and for a second time, the
directives and mandates in Oscanyan should have been exercised by
the Court.
CONCLUSION
The lower courts’ dockets speak for themselves and paint a clear
picture of judicial insubordination to US Supreme Court directives
and mandates, an authority granted by the US Congress. Mandated
procedures under Oscanyan, First Options, and 28 U.S.C. 56(a) were
intentionally ignored. Furthermore, the Circuit’s fabrication of an
order on summary judgment is egregious.

2

APPENDIX M
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Renee Marie Bumb MITCHELL H. COHEN COURTHOUSE
United States District Judge
1 John F. Gerry Plaza,
Chambers 6050
PO Box 2736
Camden, New Jersey 08101
(856) 757-5020 Fax (856) 757-5474
February 28, 2014
MAILED Sr. ELECTRONICALLY FILED
LETTER ORDER
Sara Ann Edmondson
71 Rainbow Trail
Pittsgrove, New Jersey 08318
David M. DeClement, Esquire
55 Simpson Avenue
Pitman, New Jersey 08071
Re: Sara Ann Edmondson v. Lilliston Ford, Inc.
Civil Action No. 13-7704 (RMB/JS)
Dear Counsel and Ms. Edmondson:
Oral argument on Defendant’s Motion to Dismiss has been
rescheduled for March 25, 2014,

3

at 10:00 a.m., in Courtroom 3D, U.S. District Court, 4th and Cooper
Streets, Camden, New Jersey.
Prior to oral argument, Defendant, who has represented that
Lilliston Ford Inc., v. Sara Ann Edmondson. Docket No. DC-1470-12
in the Superior Court of New Jersey, previously settled, is
ORDERED to provide this Court with the transcript(s) of all state
court proceedings in that matter.
Defendant shall file the
transcript(s) on the docket in this matter via ECF.
Kindly mark your calendars accordingly.
Very truly yours,
s/Renee Marie Bumb
RENEE MARIE BUMB
United States District Judge
c:Arthur Roney, Courtroom Deputy

4

